6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Información importante con respecto a la
comunicación electrónica
Lea cuidadosamente esta información y guarde
una copia para su registro
Antes de solicitar un El Dorado Furniture BLUCard Credit Card account: Comenity Capital Bank se solicita su consentimiento para
proporcionarle información importante de forma electrónica.
Usted entiende y acepta que Comenity Capital Bank le puede proporcionar todas las divulgaciones de solicitudes obligatorias
sobre su El Dorado Furniture BLUCard Credit Card account solicitud en formato electrónico. Estas divulgaciones incluyen,
entre otros documentos, los Términos y condiciones, el Contrato de cuenta de tarjeta de crédito y la Declaración de
privacidad del cliente.
Acepta mantenernos actualizados en todo momento con su información de contacto actual. Si su información de contacto se
modificó, comuníquese con nosotros al 1-866-810-3618 (TDD/TTY: 1-888-819-1918).
Este consentimiento no lo inscribe en los estados de cuenta electrónicos. Para inscribirse en los estados de cuenta
electrónicos, visite Account Center.
Si lo solicita, le proporcionaremos copias impresas de estas divulgaciones. Tiene derecho a retirar su consentimiento, sin
ningún cargo. Llámenos al 1-866-810-3618 (TDD/TTY: 1-888-819-1918) si desea retirar su consentimiento para recibir
divulgaciones electrónicas.
Para recibir comunicaciones electrónicas y obtener la mejor visualización de esas comunicaciones, necesitará acceso a
Internet, contar con un navegador web compatible con HTML, cifrado SSL, JavaScript, CSS, tener capacidad de descargar e
imprimir estas divulgaciones y contar con Adobe Reader para ver los archivos de PDF. Puede descargarlo gratis en
https://get.adobe.com/reader/. Visite la página Preguntas frecuentes de seguridad para obtener más información sobre el
navegador web. Al seleccionar el botón “Enviar”, usted confirma que su sistema cumple con estos requisitos y que puede
acceder y descargar o imprimir divulgaciones electrónicas.
Le recomendamos que conserve una copia de estas divulgaciones para sus registros.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

1/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Si se trata de un quiosco, el quiosco mostrará las divulgaciones antes mencionadas. Las copias impresas se pueden obtener en el
mostrador del Servicio de atención al cliente.
Nota: Su El Dorado Furniture BLUCard cuenta fue emitida por Comenity Capital Bank Revise la Política de privacidad financiera y
la Política de privacidad en línea y de California de Comenity Bank para obtener más información. Residentes de California: Envíe
un formulario de solicitud de datos para realizar una solicitud de No vender mi información personal.
Resumen de tasas y Cargos
Este Resumen de tasas y cargos (Resumen) es parte del Contrato de tarjeta de crédito (Contrato) para la cuenta de la tarjeta de El
Dorado Furniture BLUCard. Léalo y guárdelo.

Ta s a s d e i n t e r é s y c a r g o s p o r i n t e r e s e s
Ta s a d e i n t e r é s a n u a l ( A P R ) p a r a c o m p r a s

29.99%
Su fecha de pago es de por lo menos 25 días después del cierre
de cada período de facturación. No se le cobrarán intereses en las
compras si paga su saldo completo en la fecha de vencimiento

Cómo evitar pagar intereses

cada mes. Si no lo hace, no volverá a recibir un período de gracia
para las compras hasta que pague el saldo en su totalidad antes
de la fecha de vencimiento por dos períodos de facturación
consecutivos.

Cargo de interés mínimo

Si desea obtener consejos de la Oficina para
la Protección Financiera del Consumidor
sobre el uso de las tarjetas de crédito

Si le cobran intereses, el cargo no será inferior a $2 por plan de
crédito.

Para obtener más información sobre los factores que debe
considerar cuando solicita o utiliza una tarjeta de crédito,
visite el sitio web de la Oficina para la Protección Financiera
d e l C o n s u m i d o r e n h t t p : / / w w w. c o n s u m e r f i n a n c e . g o v / l e a r n m o r e .

Cargos
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

2/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Cargo anual

Ninguno

Cargos de penalización

Hasta $40

• Pago atrasado

Hasta $40

• Pago devuelto

Cómo calcularemos su saldo: Utilizamos un método llamado “saldo diario (incluidas las transacciones actuales)”. Revise
su Contrato para obtener más detalles.
Derechos de facturación: La información sobre sus derechos a realizar reclamos sobre transacciones y cómo ejercer
aquellos derechos aparecen en su Contrato.
Para los residentes de Wisconsin: Si está casado, comuníquese con nosotros en el momento que reciba este Contrato al Número de
teléfono general que aparece a continuación y proporciónenos el nombre y la dirección de su cónyuge.
Fecha de impresión: Este Resumen se imprimió en June 2021. En esa fecha la información estaba correcta, pero puede haber
cambiado. Para obtener más información, comuníquese con nosotros en la dirección de correo o al número de teléfono general que
aparece a continuación.
Nombre del emisor: Comenity Capital Bank emite su tarjeta de crédito.
Ley aplicable: Este préstamo se realiza en Utah, por lo que este Contrato se rige por la ley federal de Utah.
Información sobre la tasa: En la siguiente tabla se muestran detalles de sus cargos a partir de la Fecha de impresión que aparece
anteriormente. Si este Contrato se llevó a cabo en un punto de venta, lo recibirá con su paquete de bienvenida con la información de la
t a s a v a r i a b l e e n v i g o r, e n u n p l a z o d e 3 0 d í a s .
Ta s a d e i n t e r é s a n u a l ( A P R )
actual
Compras

29.99%

Ta s a p e r i ó d i c a d i a r i a

Margen

0.08216%

N/A

C a r g o a n u a l : S i e x i s t e u n C a r g o a n u a l e n l a t a b l a a n t e r i o r, e s t e s e c o b r a r á e n e l c i e r r e d e s u p r i m e r p e r í o d o d e f a c t u r a c i ó n y
anualmente a partir de entonces. Le reembolsaremos este cargo si cierra su Cuenta dentro de los 30 días siguientes a la fecha de envío
del estado de cuenta en el que aparece el cargo. De lo contrario, no le reembolsaremos el cargo.
Cargo por pago atrasado: Si no paga el Pago Mínimo antes de la Fecha de vencimiento, le cobraremos un Cargo por retraso en el
pago. El cargo es de $29 en caso de que no le hayamos cobrado otro cargo por retraso en el pago durante seis períodos de facturación
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

3/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

a n t e r i o r e s . D e l o c o n t r a r i o , e s d e $ 4 0 . E s t e c a r g o n o e x c e d e r á e l m o n t o p e r m i t i d o p o r l a l e y.
Cargo por pago devuelto: Si realiza un pago que no se acepta, le cobraremos un cargo por pago devuelto, incluso si este se acepta en
el reenvío. El cargo es de $29 en caso de que no le hayamos cobrado otro cargo por pago devuelto en el mismo período de facturación
o e n l o s s e i s p e r í o d o s d e f a c t u r a c i ó n a n t e r i o r e s . D e l o c o n t r a r i o , e s d e $ 4 0 . E s t e c a r g o n o e x c e d e r á e l m o n t o p e r m i t i d o p o r l a l e y.
Cargo por método de pago alternativo: Existe la posibilidad de que le permitamos realizar un pago acelerado por teléfono. Si lo hace,
podríamos cobrarle un cargo. Actualmente, ese cargo es de hasta $15. Le informaremos el cargo en vigor antes de que autorice
cualquier pago y puede retirar su solicitud si no desea pagar el cargo.
Planes de crédito promocionales: Las compras hechas en una ubicación El Dorado Furniture participante o el sitio web de El Dorado
con una cuenta de tarjeta de crédito El Dorado Furniture BLUCard pueden calificar para un plan de crédito promocional como se
describe abajo. A partir de la Fecha de impresión, la tasa de interés anual (APR) de su compra será del 29.99%.
Las ofertas actuales pueden incluir lo siguiente:
Intereses Diferidos con Pago Mínimo Requerido: No se cobra interés si el pago se realiza en su totalidad en un plazo de 6, 12, 18,
24, 30, 31, 32, 33, 34, 35, 36, o 48 meses. Los intereses se cobrarán a la cuenta a partir de la fecha de compra con la tasa de
interés anual de compra si el saldo del plan no se paga en su totalidad dentro del período promocional.
Ta s a d e I n t e r é s A n u a l B a j a c o n P a g o I g u a l e s : Ta s a d e i n t e r é s a n u a l d e l 4 . 9 9 % d u r a n t e 5 0 m e s e s o t a s a d e i n t e r é s a n u a l d e l 7 . 9 9 %
durante 60 meses. Después de eso, la tasa de interés anual para las compras se aplicará a cualquier saldo restante del plan.
Intereses Renunciado con Pago Iguales: Sin intereses durante 24 o 36 meses. Después de eso, la tasa de interés anual (APR) para
compras se aplicará a cualquier saldo restante del plan.
Aplicable a todos los planes de crédito promocionales
Los planes disponibles y las condiciones de la oferta están sujetos a cambios. La disponibilidad del plan puede estar
limitada a determinadas ubicaciones o compras en línea. Para obtener más información, visite una tienda El Dorado
Furniture o el sitio web de El Dorado Furniture.

Se exigen pagos mínimos para cada plan de crédito. Consulte la sección Pago mínimo para más detalles.

No se garantiza que los pagos mínimos paguen el saldo del plan promocional dentro del período promocional. Es posible que tenga
que pagar más que el pago mínimo para evitar pagar intereses con la tasa de interés anual (APR) para compra. Algunos saldos se
pueden pagar antes de que termine el período promocional.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

4/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

S i n o s e l e c c i o n ó e l f i n a n c i a m i e n t o p r o m o c i o n a l , s u p a g o m í n i m o p u e d e s e r m a y o r.

Válido solamente para transacciones únicas. Si una transacción única tiene varios envíos, cada envío puede quedar en un plan de
crédito separado, sujeto a un requerimiento de compra mínima y un cargo de interés

Pago mínimo: Puede pagar la totalidad del saldo de su Cuenta en cualquier momento. Debe pagar al menos el Pago mínimo en cada
período de facturación antes de la Fecha de vencimiento indicada en su estado de cuenta.
Si el Nuevo saldo en su estado de cuenta es menor que $29 (o $35 en caso de que le hayamos cobrado otro cargo por retraso en el
pago durante seis períodos de facturación anteriores), el Pago Mínimo será el Nuevo saldo.
Si el Nuevo Saldo es mayor que $29 (o $35 en caso de que le hayamos cobrado otro cargo por retraso en el pago durante seis
períodos de facturación anteriores), el Pago mínimo será el monto adeudado más la suma de los montos adeudados en cada Plan de
crédito como se explica a continuación:
C o m p r a r e g u l a r, I n t e r e s e s D i f e r i d o s c o n P a g o
Mínimo Requerido y Intereses Renunciado
con Pago Mínimo Requerido

El 3.5% del saldo del plan al final del período de facturación redondeado a la cifra $1
más cercana (mínimo $5)

Intereses Diferidos con Pago Iguales y

El monto de la compra dividido por la cantidad de meses del período promocional,

Intereses Renunciado con Pago Iguales

redondeado a la cifra $1 más cercana (mínimo $5)
El monto de la compra incluidos los cargos de interés calculados desde la fecha de

Ta s a d e I n t e r é s A n u a l B a j a c o n P a g o I g u a l e s c o m p r a h a s t a e l f i n a l d e l p e r í o d o p r o m o c i o n a l , d i v i d i d o p o r l a c a n t i d a d d e m e s e s e n e l
período promocional redondeado a la cifra $1 más cercana (mínimo $5)
Intereses Diferidos con Pago Bajo y

El 1% del saldo del plan al final del período de facturación redondeado a la cifra $1

Intereses Renunciado con Pago Bajo

más cercana (mínimo $5)

Pago por Presupuesto o Pago por

Pagos mensuales de $49, $99, $149, $199 o $299, según lo especificado en la oferta

Presupuesto con Cargo Abierto

basado en el monto de la transacción

Cargo Abierto (excepto el Pago por
Presupuesto con Cargo Abierto)

Para obtener más información sobre el plan de crédito correspondiente revise las
secciones anteriores
Si su saldo aumenta durante el período de Cargo abierto, su Pago mínimo aumentará

Cómo puede comunicarse con nosotros:
Reclamos de arbitraje

Comenity Capital Bank, PO Box 182436, Columbus, OH 43218-2436

Rechazo de arbitraje

Comenity Capital Bank, PO Box 182422, Columbus, OH 43218-2422

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

5/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Av i s o s d e q u i e b r a

Comenity Capital Bank, Departamento de quiebra, PO Box 183043, Columbus, OH 43218-3043

Errores de facturación

Comenity Capital Bank, PO Box 182620, Columbus, OH 43218-2620

Reclamos de informes
crediticios
Reclamos relacionados con
deudas

Comenity Capital Bank, PO Box 182120, Columbus, OH 43218-2120

6550 North Loop 1604 East, Suite 101, San Antonio, TX 78247-5004
• El Dorado Furniture BLUCard: 1-866-810-3618
• T D D / T T Y: 1 - 8 8 8 - 8 1 9 - 1 9 1 8

General

• Comenity Capital Bank, PO Box 183003, Columbus, OH 43218-3003
• c o m e n i t y. n e t / e l d o r a d o f u r n i t u r e
Cuando lo haga, asegúrese de incluir su nombre, dirección, número de teléfono y Número de cuenta.

Contrato de tarjeta de crédito
Este Contrato, incluido el Resumen, constituye su acuerdo con nosotros. Léalo y guárdelo.
Aceptación: Usted acepta el presente Contrato si usa la Cuenta o no la cancela dentro de los 30 días posteriores a la entrega del
Contrato. Su firma en cualquier solicitud o petición con respecto a esta Cuenta u otro indicio de deuda en su Cuenta corresponde a la
que usted estampó en este Contrato.
Arbitraje: En este Contrato se incluye una Cláusula de arbitraje con renuncia de demandas colectivas y a juicio con jurado. Puede
rechazar Cláusula de arbitraje. Si no lo hace, esta será parte del presente Contrato.
Cambios: Las tasas, las cuotas y los términos de este Contrato pueden cambiar y podemos agregar o eliminar cualquier término.
Le avisaremos con anticipación y otorgaremos el derecho a rechazarlo, si la ley así lo exige.

Definiciones
Cuenta: la cuenta de tarjeta de crédito con nosotros en virtud del presente Contrato.
Usuario autorizado: cualquier persona que permita usar su Cuenta.
Ta r j e t a : u n a o m á s t a r j e t a s o d i s p o s i t i v o s d e a c c e s o , i n c l u i d o s s u N ú m e r o d e c u e n t a o t a r j e t a v i r t u a l , q u e e m i t i m o s p a r a u s t e d o a l g u n a
persona que cuente con su autorización a fin de obtener crédito en virtud del presente Contrato.
Anticipo de efectivo: si corresponde, el uso de su Cuenta para los siguientes procedimientos:
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

6/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

obtener efectivo de un cajero automático, institución financiera u otro lugar;

comprar billetes de lotería, giros postales, monedas extranjeras, tarjetas de regalo o artículos similares;

obtener efectivo o pagarle a alguien con un cheque que ofrecemos para ese propósito;

hacer cualquier otra transacción de códigos del comerciante como anticipo de efectivo, transferencia monetaria o apuesta.

Las transferencias de saldo se consideran anticipos de efectivo, a menos que le indiquemos lo contrario.
Plan de crédito: cada saldo sujeto a otros términos de financiación, como compras regulares, anticipos de efectivo y planes
promocionales.
M a r g e n : e l m o n t o a g r e g a d o a l a Ta s a p r e f e r e n c i a l ( “ p r i m e ” ) p a r a d e t e r m i n a r u n a Ta s a d e i n t e r é s a n u a l ( A P R ) v a r i a b l e .
Ta s a p r e f e r e n c i a l ( “ p r i m e ” ) : L a Ta s a p r e f e r e n c i a l ( “ p r i m e ” ) d e E E . U U . e n l a s e c c i ó n “ M o n e y R a t e s ” d e T h e Wa l l S t r e e t J o u r n a l e l
último día hábil del mes calendario.
N o s o t r o s , n o s o n u e s t r o : e l e m i s o r d e s u Ta r j e t a y s u s s u c e s o r e s o c e s i o n a r i o s .
Usted, suyo o de usted: cada persona que envía una solicitud o petición para una Cuenta y cualquier persona responsable de manera
contractual en virtud del presente Contrato.
Uso de su Cuenta
Acepta usar su cuenta según lo establecido en el presente Contrato. Usted acepta pagarnos todos los montos
Su Contrato

adeudados en su Cuenta, incluidos los cargos realizados por Usuarios autorizados. Usted acepta no utilizar su
Cuenta para transacciones ilegales.
P u e d e u t i l i z a r s u C u e n t a p a r a c o m p r a r e n c u a l q u i e r l u g a r d o n d e a c e p t e n l a Ta r j e t a . S i s u Ta r j e t a t i e n e e l l o g o t i p o

Uso de la Cuenta

de uno de nuestros proveedores de red (por ejemplo, Visa y Mastercard), puede utilizar su Cuenta para hacer
anticipos de efectivo.

Usuarios autorizados

P u e d e s o l i c i t a r Ta r j e t a s p a r a U s u a r i o s a u t o r i z a d o s . D e b e n o t i f i c a r n o s s i d e s e a q u e u n U s u a r i o a u t o r i z a d o p i e r d a
la facultad para utilizar su Cuenta.
Si es una Cuenta conjunta, cada una de las partes acepta la responsabilidad de manera individual y conjunta de

Cuentas conjuntas

t o d o e l m o n t o a d e u d a d o . To d o s l o s a v i s o s q u e e n v i e m o s a c u a l q u i e r a d e l a s p a r t e s s e r v i r á n c o m o n o t i f i c a c i ó n
para ambas.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

7/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Autorizaciones de

Podemos rechazar la autorización de una transacción por cualquier motivo. No asumiremos la responsabilidad

crédito

a n t e u s t e d s i l o h a c e m o s o s i a l g u i e n r e c h a z a c u a l q u i e r u s o d e s u Ta r j e t a .

Límite de crédito

Planes de crédito
promocionales

Le informaremos sobre sus límites de crédito. Mantenga un saldo inferior a los límites de crédito. Si no lo hace,
deberá pagarnos. Podemos cambiar sus límites de crédito en cualquier momento, sin previo aviso.
Podemos ofrecer términos especiales de financiación, como intereses diferidos, intereses renunciados, tasas
bajas de interés anual u opciones de pago iguales. Los Planes de crédito estarán sujetos a los términos de la
oferta y del presente Contrato.
L a s a p l i c a c i o n e s ( a p p s ) e n d i s p o s i t i v o s e l e c t r ó n i c o s ( c o m o l o s m o n e d e r o s m ó v i l e s ) p u e d e n a l m a c e n a r s u Ta r j e t a y

Acceso electrónico

utilizarla para obtener crédito en virtud del presente Contrato. Este Contrato cubre dichas transacciones. Es
posible que las aplicaciones tengan otros términos de uso. No asumimos la responsabilidad de ninguna
consecuencia ante la infracción de esos términos.

Ta s a s d e i n t e r é s a n u a l e i n t e r e s e s b a s a d o s e n t a s a s d e i n t e r é s a n u a l
Consulte el Resumen de las tasas de interés anual que se aplican a su Cuenta
A g r e g a m o s e l M a r g e n a p l i c a b l e e s p e c i f i c a d o e n l a t a b l a d e I n f o r m a c i ó n d e t a s a s e n e l R e s u m e n a l a Ta s a
p r e f e r e n c i a l ( “ p r i m e ” ) p a r a d e t e r m i n a r l a s Ta s a s d e i n t e r é s a n u a l v a r i a b l e s .
Ta s a s d e i n t e r é s
anual variables

L a s Ta s a s d e i n t e r é s a n u a l v a r i a b l e s a u m e n t a n o d i s m i n u y e n c u a n d o c a m b i a l a Ta s a p r e f e r e n c i a l ( “ p r i m e ” ) , p e r o
no superarán la tasa de interés anual máxima especificada en el gráfico de información de la tasa.
Cualquier cambio de la tasa de interés anual entrará en vigor el primer día del período de facturación que
c o m i e n c e d e s p u é s d e l o s c a m b i o s e n l a Ta s a p r e f e r e n c i a l ( “ p r i m e ” ) . L a Ta s a d e i n t e r é s a n u a l a u m e n t a d a
incrementará los cargos por intereses y puede aumentar su Pago mínimo.

Método de saldo

Empleamos la tasa periódica diaria aplicable al saldo diario para calcular los intereses de cada Plan de crédito

diario (incluidas las

todos los días. La tasa periódica diaria es la tasa de interés anual para el Plan de crédito dividida entre 365.

transacciones

Empezamos con el saldo inicial cada día (incluidas las cuotas y los intereses no pagados).

actuales)

Agregamos nuevas transacciones y cuotas al Plan de crédito correspondiente. Agregamos cuotas de transacción
al mismo Plan de crédito que la transacción. Agregamos todas las otras cuotas al Plan de crédito de compra
r e g u l a r.
Restamos los nuevos créditos y pagos del Plan de crédito correspondiente y hacemos otros ajustes para obtener
el saldo diario parcial.
Multiplicamos el saldo diario parcial por la tasa periódica diaria para obtener el interés diario.
Agregamos el interés diario al saldo diario parcial para obtener el saldo diario. Esto se traduce en el cálculo
diario del interés.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

8/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Agregamos todos los intereses diarios a fin de obtener el interés total del Plan de crédito para el período de
facturación. En cuanto a un Plan de crédito de intereses diferidos, estos son intereses diferidos.
Redondeamos los intereses al centavo más cercano.
Intereses de carga: El interés comienza en una transacción, cuota o interés desde el día en que se agrega al
saldo diario hasta que se paga en su totalidad.
Cómo evitar pagar intereses en compras regulares (período de gracia): Si no tenía un Saldo anterior o si
pagó un Saldo nuevo en su estado de cuenta anterior antes de la Fecha de vencimiento que aparece en ese
estado de cuenta, no cobraremos los intereses en las nuevas compras regulares, o cualquier parte de la misma,
que haya pagado antes de la Fecha de vencimiento en su estado de cuenta actual. Si tiene Planes de crédito
promocionales o transferencias de saldo, podríamos excluir algunos de esos saldos del monto que debe pagar en
un período de facturación para mantener su Período de gracia. Sin embargo, debe pagar (i) cualquier pago
mínimo requerido de dichos saldos, (ii) el monto total de cualquier Anticipo de efectivo y (iii) el monto total de
cualquier Plan de crédito promocional que expire en ese período de facturación.
Intereses

Podría perder su período de gracia: de cómo aplicamos su pago, no puede obtener un Período de gracia en
nuevas compras regulares si no paga todo el Saldo nuevo en cada período de facturación. Una vez que pierde
su Período de gracia, puede volver a obtenerlo pagando el Nuevo saldo (menos cualquier Plan de crédito
promocional o transferencias de saldo, según se describe anteriormente, más cualquier interés cobrado hasta la
fecha en que se registra el pago) en su totalidad durante dos períodos de facturación seguidos.
Plan de Crédito con Interés Renunciado: No imponemos intereses en los saldos del plan durante el período
promocional. Después del período promocional, cualquier saldo restante se agrega al saldo de compra regular y
está sujeto a los intereses de la tasa actual del momento en compras regulares.
Plan de Crédito con Interés Diferido: Los intereses se acumulan en los saldos del plan a partir de la fecha de
la transacción. No imponemos esos intereses si paga todo el saldo al final del período promocional. Después del
período promocional, cualquier interés y saldo restante de la transacción se agrega al saldo de compra regular y
está sujeto a los intereses de la tasa actual del momento en compras regulares.

Pagos
Acreditamos los pagos según los términos de su estado de cuenta. Consulte el estado de cuenta para obtener
Instrucciones de pago

más información.
Para fondos en depósito en EE. UU., pague en dólares estadounidenses. Si no lo hace, podemos rechazar su
pago o cobrarle nuestros costos para recaudar los fondos.

Cómo aplicamos los
pagos

Aplicamos pagos hasta el Pago mínimo según nuestro criterio, lo que puede dar como resultado que los saldos a
una tasa de interés anual más baja se paguen primero y se cobren cargos de interés más altos. Los pagos
m a y o r e s d e l P a g o m í n i m o s e a p l i c a r á n s e g ú n l o e s t a b l e c i d o e n l a l e y.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

9/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Otra información
Usted no cumple con lo establecido en las siguientes situaciones:
• no cumple con el Contrato o cualquier otro acuerdo con nosotros o con una filial;
• bancarrota u otro procedimiento de insolvencia declarado por usted o en su contra;
Incumplimiento

• creemos razonablemente que no puede pagarnos o no está dispuesto a hacerlo;
• fallece o no cuenta con la capacidad ni las competencias desde el punto de vista legal;
• nos entrega información engañosa, falsa, incompleta o incorrecta, o se niega a darnos alguna información que
consideremos necesaria.
Si no cumple, podemos declarar todo el saldo inmediatamente como adeudado y pagadero sin previo aviso.

Costo de cobranza

Política de privacidad

Si usamos un abogado para cobrar su Cuenta, podemos cobrarle nuestros costos si lo permite la ley y según lo
establecido en ella. Estos pueden incluir honorarios razonables de abogados y costos de los tribunales.
N o s a u t o r i z a a c o m p a r t i r i n f o r m a c i ó n s o b r e u s t e d y s u C u e n t a s e g ú n l o p e r m i t i d o p o r l a l e y. C o n s u l t e n u e s t r a
Declaración de privacidad para obtener los detalles sobre las prácticas de intercambio de información.
Podremos revisar sus registros de ingresos, empleo y crédito relacionados con una solicitud, actualización,
renovación o extensión del crédito en su Cuenta (incluidos los cobros y las investigaciones sobre reclamos).

Generación de
informes crediticios

Usted da su consentimiento para la obtención de tales registros cuando firma o presenta una solicitud o petición.
Si lo solicita, facilitaremos el nombre y la dirección de cualquier agencia de información crediticia que haya
presentado un informe sobre usted. Podemos informar sobre el estado de la Cuenta y el historial de pagos a las
agencias de información crediticia, los otros acreedores y la empresa cuyo nombre o marca aparezca en su
Ta r j e t a .
Notifíquenos inmediatamente en la dirección de correo general o el número de teléfono que aparece en el

Uso no autorizado

R e s u m e n y a y ú d e n o s e n n u e s t r a i n v e s t i g a c i ó n e n c a s o d e q u e l e r o b e n s u Ta r j e t a , l a p i e r d a o c r e a q u e a l g u i e n
la está usando sin su permiso.
Puede cerrar su Cuenta en cualquier momento. Sigue siendo responsable de cualquier monto adeudado en virtud

Cerrar su Cuenta

d e l p r e s e n t e C o n t r a t o . P o d e m o s c e r r a r, s u s p e n d e r o n o r e n o v a r s u C u e n t a e n c u a l q u i e r m o m e n t o p o r c u a l q u i e r
motivo y sin previo aviso.

Tr a n s a c c i o n e s e n e l

Si corresponde, nuestros proveedores de la red (por ejemplo, Visa y Mastercard) pueden convertir las

extranjero

transacciones en moneda extranjera a dólares estadounidenses utilizando sus procedimientos vigentes cuando se
procese la transacción. En la actualidad, utilizan una tasa impuesta por el Gobierno o de comercio mayorista.
Estos procedimientos pueden cambiar sin previo aviso.
La tasa de conversión que obtiene puede ser distinta a la tasa de la transacción o de la fecha posterior y
también a la que obtiene nuestro proveedor de red. Un tercero puede convertir una transacción en dólares
estadounidenses u otra moneda con la cuota que él elija antes de enviarla a nuestro proveedor de red.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

10/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Para cualquier transacción realizada o procesada fuera de EE. UU. o en moneda extranjera, cobramos una cuota
en el monto del Resumen.
Conformidad con la
ley; divisibilidad
Irrenunciabilidad
Cesión
Residentes de New
Jersey:

Si alguna parte de este Contrato entra en conflicto con la ley correspondiente, esa disposición se considerará
modificada para ajustarse a la ley correspondiente. Si alguna parte de este Contrato no es válida, el resto
p e r m a n e c e r á e n v i g o r, s a l v o q u e s e i n d i q u e l o c o n t r a r i o e n l a D i s p o s i c i ó n d e a r b i t r a j e .
N o p e r d e r e m o s n u e s t r o s d e r e c h o s e n v i r t u d d e l p r e s e n t e C o n t r a t o s i h a y d e m o r a o n o l o s h a c e m o s c u m p l i r.
Podemos ceder a un tercero las obligaciones y cualquier derecho, o todos ellos, en virtud del presente Contrato.
Usted no puede ceder ninguno de sus derechos u obligaciones en virtud del presente Contrato.
To d a s l a s d i s p o s i c i o n e s d e e s t e c o n t r a t o s o n v á l i d a s y e j e c u t a b l e s e n N e w J e r s e y.

Comunicaciones con nosotros

Registros y grabaciones: Es posible que se registren y graben sus comunicaciones con nosotros y nuestras filiales, proveedores de
servicios y contratistas. Informe sobre esto a los Usuarios autorizados y a las personas que actúen en su nombre o que realicen pagos
en esta Cuenta bajo esta cláusula.
Autorización de comunicación: Usted da su consentimiento directo a nosotros, nuestras filiales, proveedores de servicios y contratistas,
incluidos los agentes de cobro, para comunicarnos con usted mediante cualquier método a fin de administrar o realizar cobros en su
Cuenta, ya sea por medio de llamada telefónica, mensaje de texto o mensaje de correo electrónico a través de:
Cualquier número de teléfono que nos proporcione, incluso si el número en cuestión es un número de teléfono celular;

Cualquier otro número que nos proporcione, que utilice para comunicarse con nosotros o que pueda utilizar;

C u a l q u i e r o t r o d i s p o s i t i v o o s e r v i c i o q u e p u e d a g e n e r a r l e c a r g o s p o r l a l l a m a d a , c o m o Vo z s o b r e p r o t o c o l o d e I n t e r n e t ( V O I P ) ; y

Cualquier dirección de correo electrónico que nos proporcione o de cualquier otra persona o empresa que preste servicios
relacionados con este Contrato.

Sujeto a cualquier restricción de la ley correspondiente, es posible que nos comuniquemos con usted a través de sistemas de marcación
telefónica automática o mensajes de voz pregrabados o artificiales y cualquier otra forma de comunicación.
L a s c o m u n i c a c i o n e s p u e d e n g e n e r a r c a r g o s a d i c i o n a l e s d e t e l e f o n í a c e l u l a r, m e n s a j e s d e t e x t o , d a t o s , e n t r e o t r o s .
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

11/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Para cambiar sus preferencias puede llamar al número de teléfono general que aparece en el Resumen.
R e c l a m o s r e l a c i o n a d o s c o n d e u d a s : To d a s l a s c o m u n i c a c i o n e s r e l a c i o n a d a s c o n m o n t o s r e c l a m a d o s , q u e i n c l u y a n c u a l q u i e r c h e q u e u
o t r o i n s t r u m e n t o d e p a g o m a r c a d o c o m o “ p a g a d o e n s u t o t a l i d a d ” o u n o s i m i l a r, d e b e n e n v i a r s e a l a d i r e c c i ó n e s t a b l e c i d a p a r a R e c l a m o s
relacionados con deudas que aparece en el Resumen. Podemos aceptar el pago enviado a cualquier otra dirección sin perder ninguno de
nuestros derechos.
Av i s o s d e q u i e b r a : E n v í e a v i s o s d e q u i e b r a y c o r r e s p o n d e n c i a s r e l a c i o n a d a s c o n l a d i r e c c i ó n e s t a b l e c i d a p a r a A v i s o s d e q u i e b r a q u e
aparece en el Resumen.
Cambios: Acepta notificarnos al Número de teléfono general o a la dirección que aparece en el Resumen, o a través de la actualización
de su información en Centro de cuentas inmediatamente después de cambiar su nombre, dirección de correo electrónico, dirección postal
y número de teléfono.
Comunicaciones en idiomas distintos del inglés: Acepta recibir todas las comunicaciones relacionadas con su cuenta en inglés. Es
posible que, a nuestra elección y por cortesía, nos comuniquemos con usted en otros idiomas. Podemos dejar de comunicarnos con
usted en otros idiomas diferentes del inglés en cualquier momento. Aunque tratamos de garantizar la precisión de las traducciones, no
somos responsables de ninguna inexactitud en la traducción ni de ningún malentendido debido a las diferencias en el uso o el dialecto.
En caso de cualquier inconsistencia entre la versión en inglés y la traducción, predominará la versión en inglés.
Av i s o p a r a m i e m b r o s m i l i t a r e s e n s e r v i c i o a c t i v o y s u s d e p e n d i e n t e s
Las siguientes divulgaciones se aplicarán a usted si, en relación con la apertura de su Cuenta, determinamos que es un “deudor
cubierto” como se define en la Ley de Préstamos para Militares, que incluye a los miembros en servicio activo elegibles de las Fuerzas
Armadas y a sus dependientes:
La disposición de este Acuerdo titulado “Renuncia a juicio con jurado y arbitraje” no se aplica a usted.

La ley federal proporciona importantes protecciones a los miembros de las Fuerzas Armadas y a sus dependientes en relación con
l a s e x t e n s i o n e s d e l c r é d i t o a l c o n s u m i d o r. E n g e n e r a l , e l c o s t o d e l c r é d i t o a l c o n s u m i d o r p a r a u n m i e m b r o d e l a s F u e r z a s A r m a d a s
y p a r a s u d e p e n d i e n t e n o p u e d e e x c e d e r u n a t a s a d e p o r c e n t a j e a n u a l d e l 3 6 % . E s t a t a s a d e b e i n c l u i r, s e g ú n c o r r e s p o n d a a l a
transacción o cuenta del crédito: Los costos asociados con las primas de seguro de crédito; los cargos por productos auxiliares
vendidos en relación con la transacción de crédito; cualquier solicitud de cuota cargada (con excepción de ciertas cuotas de
solicitud para transacciones o cuentas de crédito especificadas); y cualquier cuota de participación cargada (excepto ciertas cuotas
de participación para una cuenta de tarjeta de crédito).

Para escuchar la información sobre estas protecciones y una descripción de sus obligaciones de pago, llame gratis al 1-866-2300418 (o al número General TDD/TTY que aparece en el Resumen).
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

12/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Renuncia a juicio con jurado y arbitraje
Lea detenidamente las siguientes disposiciones importantes. Preste especial atención a los siguientes
párrafos:
• A: Renuncia a juicio con jurado;
Disposiciones clave

• C: Introducción a la disposición de arbitraje;
• C.1: Derecho a rechazo;
• C.6: Prohibición de juicios ante tribunales y con jurado; otras limitaciones a los derechos legales; y
• C.7: Renuncia de demandas colectivas.
E n l a m e d i d a e n q u e l o p e r m i t a l a l e y, u s t e d y n o s o t r o s r e n u n c i a m o s a l d e r e c h o a j u i c i o c o n j u r a d o e n

A. Renuncia a juicio
con jurado

caso de una demanda derivada de este contrato o relacionada con este. Esta renuncia a juicio con jurado
no afectará la cláusula de arbitraje a continuación (incluida la renuncia a juicio con jurado contenida en
e l l a ) . Ta n t o u s t e d c o m o n o s o t r o s d e c l a r a m o s q u e e s t a r e n u n c i a s e r e a l i z a d e m a n e r a c o n s c i e n t e y
voluntaria.
Antes de interponer una demanda o iniciar un arbitraje que haga valer un reclamo que surja de este Contrato o
esté relacionado con el mismo (tal como se define a continuación, “Reclamo”), la parte que haga valer el reclamo
(“Demandante”) deberá avisar por escrito a la otra (“Demandado”) sobre el Reclamo (“Aviso de reclamo”) y
otorgarle una oportunidad razonable, no inferior a 30 días, para resolver el Reclamo. Los Avisos de reclamo
dirigidos a usted se enviarán a la dirección que aparece en nuestros registros (o una dirección actualizada que

B . Av i s o y
saneamiento

nos haya proporcionado posteriormente). Los Avisos de reclamo dirigidos a nosotros se enviarán a través de
correo postal a la dirección establecida para Avisos de Reclamo que aparece en el Resumen (o una dirección
actualizada que proporcionemos posteriormente). Los Avisos de reclamo que envíe deben incluir su nombre,
dirección y número de cuenta, y en ellos debe explicar el motivo del Reclamo y la compensación que solicita.
Solamente puede enviar un Aviso de reclamo en su nombre y no en nombre de un tercero. Ningún tercero,
excepto un abogado que usted haya contratado personalmente, puede enviar un Aviso de reclamo e su nombre.
El Demandante debe cooperar razonablemente y proporcionar la información pertinente que el Demandado otra
parte solicite sobre el Reclamo.
Lea cuidadosamente esta cláusula. Si no la rechaza según lo establecido en el Párrafo C.1, Derecho a

C. Cláusula de

rechazo, a continuación, será parte de este Contrato y tendrá un impacto considerable en la forma que

arbitraje

usted o nosotros resolvamos los Reclamo que cualquiera de las partes sostengan en contra de la otra,
ahora o en el futuro.

1. Derecho a rechazo

Si no desea que se aplique esta Cláusula de arbitraje (ni otro contrato de arbitraje previo entre usted y
nosotros [“Contrato de Arbitraje Previo”]), puede rechazarlo a través del envío de un aviso de rechazo por
escrito a nosotros, el cual debe incluir su nombre y una declaración que indique que usted (ambos, en

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

13/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

c a s o d e i n c l u i r a m á s d e u n a p e r s o n a ) r e c h a z a l a C l á u s u l a d e a r b i t r a j e d e e s t e C o n t r a t o . E l Av i s o d e
rechazo se debe enviar a la dirección establecida para Rechazo de arbitraje que aparece en el Resumen.
Un aviso de rechazo solo es válido si tiene su firma (de todos, en caso de incluir a más de una persona) y
si la recibimos dentro de 30 días corridos posteriores a la fecha en que le proporcionemos por primera vez
un contrato de tarjeta de crédito o un aviso por escrito en el cual le ofrezcamos el derecho a rechazar
esta Cláusula de arbitraje. Rechazar esta Cláusula de arbitraje no afectará a las demás cláusulas de este
Contrato o su posibilidad de obtener crédito.
Solamente como se utiliza en esta Cláusula de arbitraje (y no en otra sección de este Contrato), los términos
“nosotros” y “nuestro” hacen referencia a
e l e m i s o r d e s u Ta r j e t a s e ñ a l a d o e n e l R e s u m e n y s u s s u c e s o r e s o c e s i o n a r i o s , a s í c o m o a c u a l q u i e r m a t r i z ,
2. Partes

subsidiaria o filial suya, y sus empleados, funcionarios y directores (las “Partes del Banco”); y
cualquier otra persona o empresa que preste servicios relacionados con este Contrato si usted interpone un
Reclamo contra dicha persona o empresa al mismo tiempo que interpone un reclamo contra cualquier Parte del
Banco.
“Reclamo” hace referencia a cualquier reclamo, conflicto o controversia entre usted y nosotros que surja o se
r e l a c i o n e d e a l g u n a f o r m a c o n e s t e C o n t r a t o , l a C u e n t a o l a e m i s i ó n d e u n a Ta r j e t a , c u a l q u i e r p r o g r a m a d e
recompensas o contrato o cuenta previa. “Reclamo” incluye aquellos reclamos que surjan a partir de acciones u
o m i s i o n e s p r e v i a s a l a f e c h a d e l a e m i s i ó n d e c u a l q u i e r Ta r j e t a a s u n o m b r e , e s t o i n c l u y e l a p u b l i c i d a d
relacionada con ella, la solicitud o la aprobación de la Cuenta. “Reclamo” tiene el significado más amplio posible
e incluye reclamos iniciales, reconvenciones, reclamos recíprocos y reclamos de terceros. Incluye reclamos
b a s a d o s e n c o n t r a t o s , a g r a v i o s , d e r e c h o s d e l c o n s u m i d o r, f r a u d e y o t r o s a g r a v i o s i n t e n c i o n a l e s , c o n s t i t u c i o n e s ,

3. Reclamos cubiertos

leyes, reglamentos, ordenanzas, derecho consuetudinario y equidad (incluido cualquier reclamo por medidas
cautelares o declarativas). “Reclamo” no incluye disputas sobre la validez, la aplicabilidad, la cobertura o el
alcance de esta Cláusula de arbitraje o cualquier parte de la misma (incluye, sin limitación, la prohibición de
procedimientos colectivos, procedimientos judiciales privados o procedimientos múltiples descritos en el Párrafo
C.7, Prohibición de determinados procedimientos (Renuncia de demandas colectivas), Párrafo C.13, Divisibilidad,
o esta oración); todos estos reclamos están sujetos a la decisión de un tribunal y no de un árbitro. Sin embargo,
los reclamos o argumentos que tengan relación con la validez o la aplicabilidad del Contrato en su totalidad
implican la decisión de un árbitro y no de un tribunal.
Cualquiera de las partes puede solicitar arbitraje con respecto a un Reclamo, incluso si dicha parte ya inició una

4. Inicio de un
arbitraje

demanda relacionada con otro Reclamo. El arbitraje se inicia por medio de una solicitud de arbitraje que se
envía por escrito a la otra parte. No exigiremos arbitrar un Reclamo individual que usted haga contra nosotros en
un tribunal de reclamos menores o el tribunal equivalente de su estado, si lo hubiera. No obstante, si transfiere
o retira ese Reclamo o se apela en un tribunal diferente, tenemos el derecho a exigir el arbitraje.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

14/28

6/7/2021

5. Administrador

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

“ A d m i n i s t r a d o r ” h a c e r e f e r e n c i a a l a A m e r i c a n A r b i t r a t i o n A s s o c i a t i o n ( “ A A A ” ) , 1 2 0 B r o a d w a y, 2 1 s t F l o o r, N e w
Yo r k , N Y 1 0 2 7 1 , w w w. a d r. o r g ; J A M S , 6 2 0 E i g h t h A v e n u e , 3 4 t h F l o o r, N e w Yo r k , N Y 1 0 0 1 8 , w w w. j a m s a d r. c o m ; o
cualquier otra empresa seleccionada por mutuo acuerdo de las partes. Si tanto la AAA como JAMS no pueden o
no prestan sus servicios y las partes no logran seleccionar un Administrador por consentimiento mutuo, un
tribunal se encargará de seleccionarlo. El Administrador nombrará al Árbitro de conformidad con sus normativas.
Sin embargo, el árbitro debe ser un juez o abogado jubilado o retirado con al menos 10 años de experiencia.
Usted puede seleccionar al Administrador si nos proporciona un aviso por escrito de su selección en el que
indique que ha decidido arbitrar los Reclamos o dentro de los 20 días posteriores a nuestro aviso en el que
señalemos que hemos decidido arbitrar los Reclamos (o, si cuestiona nuestro derecho a solicitar arbitraje del
Reclamo, 20 días posteriores a la resolución de dicho reclamo). Si no selecciona al Administrador dentro del
plazo establecido, nosotros lo haremos. Sin perjuicio de que en esta Cláusula de arbitraje se disponga lo
contrario, no se llevará a cabo ningún arbitraje sin el consentimiento de las partes a tal fin por parte de ningún
Administrador que disponga de una política formal o informal que sea incompatible con la Renuncia de demandas
colectivas.

6. Prohibición de
juicios ante tribunales
y con jurado; otras
limitaciones a los
derechos legales:

Si usted o nosotros decidimos arbitrar un Reclamo, no tendrá el derecho a continuar dicho Reclamo en un
tribunal u obtener su resolución por medio de un jurado. Además, su capacidad para obtener información
por parte de nosotros es más limitada en un arbitraje que en una demanda. Es posible que otros de los
derechos a su disposición en caso de acudir a un tribunal no lo estén durante un arbitraje.
Si usted o nosotros elegimos arbitrar un Reclamo:

7. Prohibición de
determinados
procedimientos
(Renuncia de
demandas colectivas)

ni usted ni nosotros participaremos en una demanda colectiva en tribunales o en un arbitraje colectivo, ya
sea como demandante, demandado o parte de la demanda;
ni usted ni nosotros actuaremos como apoderados generales en el tribunal o en el arbitraje;
Los Reclamos que usted presente o que se presenten en su contra no se unirán ni consolidarán con
Reclamos presentados por un tercero o en contra de este; y
el árbitro no tendrá el poder o la autoridad para llevar a cabo un arbitraje colectivo, un arbitraje judicial
privado o un arbitraje de varias partes.
Cualquier audiencia de arbitraje a la que asista debe tener lugar en una ubicación razonablemente conveniente
p a r a u s t e d . N o s o t r o s p a g a r e m o s t o d o s l o s h o n o r a r i o s d e l A d m i n i s t r a d o r o e l Á r b i t r o , s i a s í l o e x i g e l a l e y, s i

8. Ubicación y costos

usted resulta ser la parte favorecida del arbitraje o si debemos asumir dichos cargos para aplicar esta Cláusula
de arbitraje. Si usted exige un arbitraje, nosotros pagaremos los honorarios razonables de sus abogados y
asesores si resulta ser la parte favorecida del arbitraje o si debemos asumir dichos cargos para aplicar esta
Cláusula de arbitraje. Además, asumiremos cualquier otro cargo si ley aplicable así nos lo exige.

9. Ley aplicable
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

15/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Esta Cláusula de arbitraje concierne al comercio interestatal y se rige por la Ley Federal de Arbitraje, 9 U.S.C.
§ § 1 - 1 6 ( “ FA A ” ) , y n o p o r n i n g u n a l e y d e a r b i t r a j e e s t a t a l . E l Á r b i t r o d e b e a p l i c a r l a l e y s u s t a n t i v a a p l i c a b l e e n
c o n s o n a n c i a c o n l a FA A y l a s l e y e s d e p r e s c r i p c i ó n a p l i c a b l e s a s í c o m o l o s r e c l a m o s d e p r i v i l e g i o r e c o n o c i d o s
p o r l a l e y. E l Á r b i t r o p u e d e o t o r g a r c u a l q u i e r r e c u r s o p r o p o r c i o n a d o p o r l a l e y s u s t a n t i v a q u e s e a p l i c a r í a s i l a
demanda estuviera en curso en un tribunal (incluidos, a modo enunciativo, daños punitivos, que se regirán por
las Normas constitucionales empleadas por los tribunales). A petición oportuna de cualquiera de las partes, el
Árbitro debe proporcionar una breve explicación escrita de los motivos de la entrega del recurso.
Además de los derechos de las partes a intercambiar información de conformidad con las normas de arbitraje del
10. Intercambio de

A d m i n i s t r a d o r, c u a l q u i e r a d e l a s p a r t e s p u e d e p r e s e n t a r u n a s o l i c i t u d p o r e s c r i t o a l á r b i t r o p a r a a m p l i a r e l

información

alcance del intercambio de información normalmente permitido en virtud de las normas de arbitraje del
A d m i n i s t r a d o r. E l Á r b i t r o p o d r á c o n c e d e r o d e n e g a r d i c h a s o l i c i t u d a s u d i s c r e c i ó n .
Cualquier tribunal competente podrá dictar sentencia sobre el laudo arbitral. La decisión del Árbitro es definitiva

11 . R e s u l t a d o s y

y v i n c u l a n t e , s a l v o c u a l q u i e r d e r e c h o d e a p e l a c i ó n q u e p r o p o r c i o n e l a FA A o l a s n o r m a s d e l A d m i n i s t r a d o r.

apelaciones

Cualquier fallo, laudo o decisión de un arbitraje en relación con cualquier Reclamo se aplicará únicamente a ese
arbitraje. Ningún fallo, laudo o decisión de cualquier otro arbitraje afectará el arbitraje de cualquier otro Reclamo
Esta Cláusula de arbitraje permanecerá vigente después del pago de todos los montos adeudados en virtud del
presente Contrato, el cierre de la Cuenta, cualquier procedimiento legal y cualquier quiebra en la medida en que

12. Interpretación

sea compatible con la ley de quiebras aplicable. En caso de conflicto o inconsistencia entre esta Cláusula de
arbitraje y las normas de arbitraje aplicables u otras disposiciones de este Contrato, prevalecerá esta Cláusula
de arbitraje. Esta Cláusula de arbitraje sustituye a cualquier Contrato de Arbitraje Previo.
Si alguna parte de esta Cláusula de arbitraje se considera inválida o inaplicable, las disposiciones restantes
p e r m a n e c e r á n e n v i g e n c i a , s u j e t a s a d o s e x c e p c i o n e s . E n p r i m e r l u g a r, s i s e d e t e r m i n a q u e l a R e n u n c i a d e
demandas colectivas es inaplicable y esa determinación no se anula en la apelación, la Cláusula de arbitraje

13. Divisibilidad

s e r á n u l a e n s u t o t a l i d a d . E n s e g u n d o l u g a r, s i u n t r i b u n a l d e t e r m i n a q u e u n R e c l a m o p ú b l i c o d e m e d i d a s
cautelares puede proceder a pesar de la Renuncia de demandas colectivas y esa determinación no se anula en
apelación, un tribunal decidirá sobre el Reclamo público de medidas cautelares, los Reclamos individuales se
someterán a arbitraje y las partes solicitarán al tribunal que mantenga el Reclamo público de medidas cautelares
hasta que los demás Reclamos hayan concluido finalmente.
El árbitro le concederá al menos $5,100 (más cargos y gastos que le corresponden por derecho) si
envía, en su propio nombre, un Aviso de reclamo de conformidad con el Párrafo B, Aviso y saneamiento, que

14. Pago especial

aparece anteriormente (y no en nombre de cualquier otra parte);
nos negamos a proporcionarle el recurso que solicita antes de la designación de un Árbitro; y
un Árbitro determina posteriormente que tenía derecho a ese recurso (o uno mayor).

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

16/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Sus derechos de facturación: Guarde este documento para consultarlo en el futuro
Este aviso le informa sobre sus derechos y nuestras responsabilidades de conformidad con la Ley Fair Credit Billing Act
Qué debe hacer si encuentra un error en su estado de cuenta
Si cree que hay un error en su estado de cuenta, escríbanos a la dirección establecida para Errores de facturación que aparece el
Resumen.
Proporcione la siguiente información en su correspondencia:
Información de la Cuenta: su nombre y número de cuenta.

M o n t o e n d ó l a r e s : e l m o n t o e n d ó l a r e s d e l p o s i b l e e r r o r.

Descripción del problema: si cree que hay un error en su cuenta, describa lo que considera que está incorrecto y por qué piensa
q u e e s u n e r r o r.

Debe comunicarse con nosotros:
Dentro de un plazo de 60 días después de la aparición del error en su estado de cuenta.

Al menos 3 días hábiles antes de que se programe un pago automatizado, si desea detener el pago por el monto que cree que es
incorrecto.

Debe notificarnos de cualquier posible error por escrito. Puede llamarnos, pero, si lo hace, no estaremos obligados a investigar cualquier
error potencial y es posible que deba pagar el monto en cuestión.
Lo que sucederá después de que recibamos su correspondencia
Cuando recibamos su correspondencia, llevaremos a cabo dos acciones:
1 . D e n t r o d e 3 0 d í a s a p a r t i r d e l a r e c e p c i ó n d e s u c o r r e s p o n d e n c i a , d e b e m o s c o n f i r m a r l e q u e r e c i b i m o s s u c o r r e s p o n d e n c i a . Ta m b i é n l e
i n d i c a r e m o s s i y a c o r r e g i m o s e l e r r o r.
2. Dentro de 90 días a partir de la recepción de su correspondencia, debemos corregir el error o explicarle por qué creemos que la
factura es correcta.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

17/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Mientras investigamos si ha ocurrido un error:
No podemos intentar cobrarle el monto en cuestión ni reportarlo como moroso por dicho monto.

Es posible que el cargo en cuestión permanezca en su estado de cuenta y que realicemos cargos por concepto de intereses a
dicho monto.

Mientras no tenga que pagar el monto en cuestión, será responsable del resto de su saldo.

Podemos aplicar contra su límite de crédito cualquier monto que se encuentre adeudado.

Después de concluir nuestra investigación, puede ocurrir una de las siguientes situaciones:
Si cometimos un error: No tendrá que pagar el monto en cuestión ni los cargos por concepto de intereses u otros cargos
relacionados con dicho monto.

S i n o c r e e m o s q u e s e t r a t a d e u n e r r o r : Te n d r á q u e p a g a r e l m o n t o e n c u e s t i ó n j u n t o c o n l o s i n t e r e s e s e c a r g o s c o r r e s p o n d i e n t e s .
Le enviaremos un estado de cuenta del monto adeudado y su fecha de vencimiento. Si no paga el monto que creemos que adeuda,
podríamos declararlo como moroso.

Si recibe nuestra explicación, pero todavía cree que su factura es incorrecta, debe escribirnos dentro de 10 días e indicarnos que se
n i e g a a p a g a r. S i l o h a c e , n o l o p o d e m o s d e c l a r a r c o m o m o r o s o s i n t a m b i é n s e ñ a l a r q u e e s t á c u e s t i o n a n d o s u f a c t u r a . D e b e m o s
i n d i c a r l e e l n o m b r e d e c u a l q u i e r p e r s o n a o e n t i d a d a l a q u e h a y a m o s i n f o r m a d o s u e s t a d o d e m o r a y, a s i m i s m o , i n f o r m a r a t a l e s
organizaciones sobre la resolución del conflicto entre las partes involucradas.
Si no seguimos todas las reglas señaladas, no debe pagar los primeros $50 del monto en cuestión, incluso si su factura es correcta.
Sus derechos si no está satisfecho con sus compras con tarjeta de crédito
Si no está satisfecho con los bienes o servicios que compró con su tarjeta de crédito e intentó corregir el problema de buena fe con el
comerciante, es posible que tenga el derecho de no pagar el monto restante adeudado por la compra.
Para hacer uso de este derecho, se deben cumplir las siguientes condiciones:
1. La compra se debe haber realizado en el estado de residencia o dentro de 100 millas de su dirección actual, y el precio de la
compra debe ser superior a $50. (Nota: Esto no es necesario si la compra se realizó debido a un anuncio publicitario que le enviamos
por correo o si somos propietarios de la empresa que le vendió los bienes o servicios).
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

18/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

2. La compra se debe haber realizado con su tarjeta de crédito. No califican las compras realizadas con anticipos en efectivo de un
cajero automático o con un cheque con acceso a su cuenta de tarjeta de crédito.
3. La compra no debe estar totalmente pagada.
Si se cumplen todos los criterios anteriores y aún está insatisfecho con la compra, comuníquese con nosotros por escrito a la dirección
establecida para Errores de facturación que aparece en el Resumen.
Durante la investigación, se aplican las mismas normas mencionadas anteriormente al monto reclamado. Después de que finalizamos
nuestra investigación, le comunicaremos la decisión. En este punto, si consideramos que usted debe un monto y no lo paga, es posible
que lo declaremos como moroso.

Anexo de precios
Ta s a s d e i n t e r é s y c a r g o s
por intereses
Ta s a d e i n t e r é s a n u a l ( A P R )
para compras

29.99%
Su fecha de pago es de por lo menos 25 días después del cierre de cada período
de facturación. No se le cobrarán intereses en las compras si paga su saldo

Cómo evitar pagar intereses

completo en la fecha de vencimiento cada mes. Si no lo hace, no volverá a
recibir un período de gracia para las compras hasta que pague el saldo en su
totalidad antes de la fecha de vencimiento por dos períodos de facturación
consecutivos.

Cargo de interés mínimo

Si le cobran intereses, el cargo no será inferior a $2 por plan de crédito.

Cargos
Cargo anual

Ninguno

Cargos de penalización

Hasta $40

• Pago atrasado

Hasta $40

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

19/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

• Pago devuelto

Método de cómputo del saldo

Utilizamos un método llamado “saldo diario (incluidas las transacciones actuales)".

Antes de enviar su solicitud, revise la
Información Importante y los Términos de
apertura de una cuenta.
Para presentar una solicitud, usted debe hacer lo siguiente:
cumplir con la edad requerida en su estado o territorio;
tener una identificación con fotografía válida emitida por el Gobierno;
tener un número de identificación fiscal válido emitido por el Gobierno, como un SSN (del inglés, Social Security number,
número de seguro social) o un SIN (del inglés, Social Insurance Number, número de seguro social);
tener una dirección postal física en una calle, camino rural o APO/FPO. No aceptamos direcciones postales correspondientes
a PO Box.
Usted acepta que esta solicitud y toda información que envíe a Comenity Capital Bank podrá compartirse y retenerse por parte de
El Dorado Furniture.

Información importante sobre la apertura de una
cuenta
Para ayudar al Gobierno a combatir el financiamiento del terrorismo y las actividades de lavado de dinero, la ley federal exige que
todas las instituciones financieras obtengan, verifiquen y registren la información que identifica a cada persona que abre una
cuenta. En consecuencia: Cuando abra una cuenta, le solicitaremos su nombre, dirección, fecha de nacimiento o cualquier otra
información que nos permita identificarlo. También es posible que le solicitemos su licencia de conducir u otro documento de
identificación.
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

20/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Residentes de California:
Si está casado, puede solicitar una cuenta separada.
Residentes de Ohio:
Las leyes de Ohio en contra de la discriminación requieren que todos los acreedores hagan que el crédito esté disponible por
igual para todos los clientes que califiquen para crédito, y que las agencias de información crediticia mantengan historiales de
crédito por separado de cada persona, si así se solicita. La Comisión de los Derechos Civiles de Ohio administra el
cumplimiento de esta ley.
Residentes de Nueva York, Rhode Island y Vermont:
Podemos solicitar informes crediticios en relación con solicitudes o peticiones de procesamiento y cualquier actualización,
renovación o extensión de crédito. Si lo solicita, le facilitaremos el nombre y la dirección de cualquier agencia de informes de
consumidores que haya presentado un informe sobre usted. Usted da su consentimiento para la obtención de tales informes
cuando firma o presenta una solicitud o petición.
Residentes de Wisconsin:
Ninguna disposición de un acuerdo de bienes conyugales, declaración unilateral conforme la sección 766.59 de las leyes de
Wisconsin u orden judicial conforme a la sección 766.70 afecta negativamente los intereses del acreedor, Comenity Capital
Banka menos que al Banco, antes del momento en el que se otorga el crédito, se le entregue una copia del acuerdo, la
declaración o el decreto, o tenga conocimiento real de la disposición adversa en el momento de incurrir en un compromiso
con el Banco.
Si recibió una preaprobación, revise los siguientes detalles de su oferta.

Puede optar por dejar de recibir ofertas de crédito “preseleccionadas” por parte de esta empresa y otras
si llama gratis al 1-888-567-8688. Consulte Preselección y aviso de exclusión a continuación para obtener
más información sobre las ofertas preseleccionadas.
PRESELECCIÓN Y AVISO DE EXCLUSIÓNEsta oferta de crédito con “investigación previa” se basa en la información de
su informe crediticio que indica que cumple con ciertos criterios. Si no cumple con nuestros criterios, no podemos garantizar
esta oferta. Si no desea recibir ofertas de crédito con investigación previa de esta y otras empresas, llame al número
gratuito de agencias de informes de consumidores al 1-888-567-8688 o escriba a: Experian, PO Box 919, Allen, TX 75013;
TransUnion, PO Box 505, Woodlyn, PA 19094; Equifax, PO Box 740123, Atlanta, GA 30374; SageStream, LLC, PO Box
503793, San Diego, CA 92150; Innovis, PO Box 495, Pittsburgh, PA 15230-0495.
Información importante para los Deudores cubiertos por la Ley de Préstamos para Militares
Para las cuentas nuevas: la ley federal proporciona importantes protecciones a los miembros de las Fuerzas Armadas y a sus
dependientes en relación con las extensiones del crédito al consumidor. En general, el costo del crédito al consumidor para un miembro
de las Fuerzas Armadas y para su dependiente no puede exceder una tasa de porcentaje anual del 36 %. Esta tasa debe incluir lo
siguiente, según corresponda a la transacción o cuenta del crédito: Los costos asociados con las primas de seguro de crédito; los
cargos por productos auxiliares vendidos en relación con la transacción de crédito; cualquier cuota de solicitud cargada (con excepción
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

21/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

de ciertas cuotas de solicitud para transacciones o cuentas de crédito especificadas); y cualquier cuota de participación cargada
(excepto ciertas cuotas de participación para una cuenta de tarjeta de crédito).
Si desea conocer esta divulgación sobre la Ley de Préstamos para Militares y las obligaciones de pago correspondientes, llame al
número gratuito al 1-866-230-0418; (TDD/TTY: 1-888-819-1918).
Estoy solicitando Comenity Capital Bank para, y por medio del presente, solicitar, El Dorado Furniture BLUCard Credit Card account
para uso personal, familiar o doméstico. Por el presente, autorizo a Comenity Capital Bank a investigar mi registro crediticio. La
información que proporcioné es verdadera y precisa. Acepto que pueda obtenerse un informe crediticio para cualquier propósito legal,
incluso aquellos relacionados con el procesamiento de una solicitud o, posteriores a la actualización, renovación o extensión del
crédito. Cuando lo solicite, se me informará si se solicitó un informe crediticio del consumidor y, de ser así, se me proporcionará el
nombre y el domicilio de la agencia de información de solvencia sobre consumidores que presentó el informe. Acepto regirme por los
términos del El Dorado Furniture BLUCard Credit Card account acuerdo de cuenta. Reconozco que recibiré un El Dorado Furniture
BLUCard Credit Card account acuerdo de cuenta tras la aprobación. También reconozco que no existe ningún acuerdo entre Comenity
Capital Bank y yo hasta el momento que Comenity Capital Bank aprueba mi solicitud de crédito y acepta el El Dorado Furniture
BLUCard Credit Card account acuerdo de cuenta en su oficina de Utah y que El Dorado Furniture BLUCard Credit Card account se
considera que el acuerdo de cuenta se hace en Utah. BLUCard las emite y el crédito lo otorga Comenity Capital Bank, Salt Lake City,
Utah.
Tenga en cuenta lo siguiente:
Al enviar esta solicitud de crédito, usted acepta lo siguiente con respecto a cierta información del consumidor sobre usted.
Por el presente, (“nos”) autoriza Comenity Capital Bank a presentar nuestra decisión de emitirle una cuenta a El Dorado Furniture
BLUCard Credit Card account. Por el presente, usted nos autoriza, de aprobarse su solicitud, a presentar información relacionada con
su cuenta a agencias de información crediticia, otros acreedores y El Dorado Furniture BLUCard Credit Card account.
Revise su información antes de enviarla. No podemos procesar ningún envío sin un nombre, un domicilio, una fecha de cumpleaños y
un número de seguro social completos y precisos. Al enviar esta solicitud, usted reconoce haber leído y entendido la tarifa importante,
el cargo y otro tipo de información de costos, y, de aprobarse, acepta regirse por ellos.

Política de privacidad financiera
http://www.comenity.net/eldoradofurniture/images/privacy.pdf (PDF)
Necesita Adobe Reader para ver archivos PDF. Puede descargarlo gratis en Adobe.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

22/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

HECHOS

¿QUÉ HACE COMENITY CON SU INFORMACIÓN
PERSONAL?

Las empresas financieras eligen cómo compartir su información personal. La ley

¿Por qué?

federal les otorga a los consumidores el derecho de limitar el intercambio de
información de manera parcial, pero no total. La ley federal también nos exige
que le informemos cómo recopilamos, compartimos y protegemos su información
personal. Lea cuidadosamente este aviso para que entienda cómo lo hacemos.

Los tipos de información personal que recopilamos y compartimos dependen del
producto o servicio que le ofrecemos. Esta información puede incluir:

¿Qué?

Número de seguridad social e ingresos
Saldos de cuenta e historial de transacciones
Historial y puntajes de crédito

To d a s l a s e m p r e s a s f i n a n c i e r a s d e b e n c o m p a r t i r l a i n f o r m a c i ó n p e r s o n a l d e l o s
clientes para llevar a cabo sus actividades comerciales cotidianas. En la sección

¿Cómo?

que aparece a continuación, enumeramos las razones por las que las empresas
financieras pueden compartir la información personal de sus clientes; las razones
por las que Comenity decide compartirla y si usted puede limitar esta distribución
de información.

Motivos por los cuales podemos compartir su información
personal
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

¿Comenity
intercambia

¿Puede
limitar el
23/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

información?

intercambio
de
información?

Sí

No

Sí

No

Para el marketing conjunto con otras empresas financieras

Sí

No

A los fines comerciales diarios de nuestros afiliados, información
sobre sus transacciones y experiencias

Sí

No

Sí

Sí

Para que nuestras filiales puedan comercializar con usted

Sí

Sí

Para que las empresas no filiales puedan comercializar con usted

Sí

Sí

A nuestros fines comerciales cotidianos, como el procesamiento de
sus transacciones, el mantenimiento de sus cuentas, la respuesta a
órdenes judiciales e investigaciones legales o el informe a agencias de
información crediticia

A nuestros fines de marketing, como para ofrecerle nuestros productos
y servicios

A los fines comerciales diarios de nuestros afiliados, información
sobre su solvencia crediticia

Para limitar el
intercambio de
información

Nuestro menú le indicará sus opciones:
C l i e n t e s d e C o m e n i t y B a n k : L l a m e a l 1 - 8 0 0 - 2 2 0 - 11 8 1 ( T D D / T T Y: 1 - 8 0 0 - 6 9 5 1788)
Clientes de Comenity Capital Bank: Llame al 1-877-287-5012 (TDD/TTY 1888-819-1918)

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

24/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Te n g a e n c u e n t a l o s i g u i e n t e :
Si es un cliente nuevo, podemos comenzar a compartir su información después
de 30 días a partir de la fecha en que le enviamos este aviso. Cuando deje de
ser nuestro cliente, seguiremos compartiendo su información según lo descrito en
este aviso.
No obstante, puede comunicarse con nosotros en cualquier momento para limitar
el intercambio de información.

¿Tiene
preguntas?

Llame al 1-866-423-1097

Quiénes somos

¿Quién envía este

E s t e a v i s o d e p r i v a c i d a d l o p r o p o r c i o n a l a f a m i l i a d e e m p r e s a s d e C o m e n i t y,

aviso?

incluidas Comenity Bank y Comenity Capital Bank.

Lo que hacemos

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

25/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

¿Cómo protege

Para proteger su información personal del acceso y uso no autorizado, utilizamos

Comenity mi
información personal?

medidas de seguridad que cumplen con la ley federal. Estas medidas incluyen
medidas de seguridad informática y archivos y edificios seguros.

Recopilamos su información personal, por ejemplo, cuando usted
¿Cómo recopila
Comenity mi
información personal?

abre una cuenta o proporciona información de una cuenta
nos proporciona información sobre sus ingresos
utiliza su tarjeta de crédito o muestra su licencia de conducir
Ta m b i é n r e c o p i l a m o s s u i n f o r m a c i ó n p e r s o n a l d e o t r a s f u e n t e s , c o m o a g e n c i a s d e
información crediticia, filiales u otras empresas.

La ley federal le otorga el derecho a limitar solo
la divulgación de información para los fines comerciales diarios de nuestros
afiliados sobre su solvencia crediticia
¿Por qué no puedo

el hecho de que las filiales puedan utilizar su información para comercializar

limitar todo el

con usted

intercambio de
información?

el intercambio de información para que las empresas no filiales puedan
comercializar con usted
Las leyes estatales y ciertas empresas pueden brindarle derechos adicionales
para limitar el intercambio de información. Para obtener más información sobre
sus derechos según la ley estatal, vea los detalles a continuación.

¿Qué pasa cuando

Sus decisiones se aplicarán a todos en su cuenta.

limito el intercambio
de información de una
https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

26/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

cuenta de la que soy
titular con otra
persona?

Definiciones

Empresas que están relacionadas por la propiedad o el control común. Pueden
ser empresas financieras y no financieras.
Filiales

Nuestras filiales incluyen empresas con un nombre de Comenity; empresas
financieras como Comenity Capital Bank y Comenity Bank, otras entidades
Comenity; empresas no financieras como Epsilon, Alliance Data y
LoyaltyOne.

Empresas que no están relacionadas por la propiedad o el control común. Pueden
ser empresas financieras y no financieras.
No filiales

Las empresas que no son filiales con las que compartimos pueden incluir
proveedores de servicios financieros, minoristas, distribuidores directos,
publicistas y organizaciones sin fines de lucro.

Marketing conjunto

Un acuerdo formal entre empresas financieras no filiales que en conjunto le
ofrecen productos o servicios financieros.

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

27/28

6/7/2021

El Dorado Furniture Blucard - Legal Docs - Credit Card Agreement

Nuestros socios de marketing conjunto pueden incluir prestamistas y
empresas de seguros.

Información importante adicional

Ta m b i é n c u m p l i r e m o s c o n l a s l e y e s e s t a t a l e s m á s r e s t r i c t i v a s e n l a m e d i d a e n q u e s e a p l i q u e n ; p o r e j e m p l o ,
Ve r m o n t o C a l i f o r n i a .

https://d.comenity.net/eldoradofurniture/pub/requestCca/requestCca.xhtml?language=es

28/28

